U.S.DepartmentofJustice
Office oftheInspectorGeneral


            UNCLASSIFIED EXECUTIVE SUMMARY

A Review of the FBI’s Performance
in Deterring, Detecting, and
Investigating the Espionage Activities
of Robert Philip Hanssen




                               Office of the Inspector General
                                                 August 2003
            UNCLASSIFIED EXECUTIVE SUMMARY
I.   Introduction
      In this report, the Office of the Inspector General (OIG) of the
Department of Justice (DOJ) examines the performance of the Federal Bureau
of Investigation (FBI) in deterring, detecting, and investigating the espionage
of Robert Philip Hanssen, a former FBI Supervisory Special Agent. Hanssen's
espionage began in November 1979 − three years after he joined the FBI − and
continued intermittently until his arrest in February 2001, just two months
before his mandatory retirement date. In addition to its management
responsibility to detect espionage among its employees, the FBI is the lead
agency for detecting and investigating espionage committed in the United
States.
      Hanssen became an FBI agent in 1976. During his 25-year FBI career,
he principally served in Soviet counterintelligence assignments in New York
City and Washington, D.C. In the 1980s and 1990s, Hanssen held positions at
FBI Headquarters and the State Department that gave him access to a broad
range of highly sensitive counterintelligence and military information. On
February 18, 2001, after a three-month investigation of Hanssen, he was
arrested and charged with committing espionage on behalf of the KGB
(Komitet Gosudarstvennoy Bezopasnosti, the intelligence service of the former
Soviet Union) and its successors. On July 6, 2001, Hanssen pled guilty to
espionage charges pursuant to a plea agreement in which he agreed to
cooperate with the U.S. government and submit to debriefings. On May 10,
2002, Hanssen was sentenced to life imprisonment.
       Hanssen's espionage spanned three separate time periods: 1979-81,
1985-91, and 1999-2001. Over more than 20 years, Hanssen compromised
some of this nation's most important counterintelligence and military secrets,
including the identities of dozens of human sources, at least three of whom
were executed. Hanssen gave the KGB thousands of pages of highly classified
documents and dozens of computer disks detailing U.S. strategies in the event
of nuclear war, major developments in military weapons technologies,
information on active espionage cases, and many other aspects of the U.S.
Intelligence Community's Soviet counterintelligence program.
       Shortly after Hanssen's arrest, the Senate Select Committee on
Intelligence (SSCI) and the Attorney General asked the OIG to review the



                                       1
FBI's performance in connection with the Hanssen case. This report details the
results of the OIG's investigation.

II. Summary of the OIG Investigation and Structure of the Report
      The OIG assembled a team of three Special Investigative Counsel, a
project director, three OIG Special Agents, two analysts, and a consultant to
conduct this review. The team reported directly to the Inspector General.
       The team obtained, reviewed, and analyzed more than 368,000 pages of
material from the FBI, the Central Intelligence Agency (CIA), the Justice
Department, the National Security Agency (NSA), and the State Department.
The team also conducted more than 200 interviews in 12 states and the District
of Columbia. We interviewed Hanssen's former colleagues and supervisors at
the FBI and State Department, as well as family, friends, and acquaintances
who knew Hanssen throughout his life. We interviewed much of the
operational hierarchy of the FBI's Intelligence/National Security Division
(NSD) during the 1979 to 2001 period. In addition, we interviewed CIA and
Justice Department personnel who had substantial involvement with the FBI
regarding "penetration" matters − that is, investigating whether a foreign
intelligence service has infiltrated or recruited agents within U.S.
organizations. The team also interviewed Hanssen extensively.
      Our full 674-page report is classified at the Top Secret/Codeword level
because it contains extremely sensitive classified information regarding sources
involved in the Hanssen case and FBI counterintelligence activities. We also
produced a 383-page report, classified at the Secret level, which does not
contain the detailed information on the sensitive sources that is included in the
Top Secret/Codeword version. In addition, we produced this 31-page
unclassified executive summary to provide a public summary of the main
findings in the more extensive classified reports. We previously provided a
copy of all three reports to the FBI for its comments on their factual accuracy
and classification, and we made changes where appropriate.
      In our reports, we divide Hanssen's FBI career into three phases that
roughly correspond with the three periods of his espionage and with key FBI
penetration-related efforts. One chapter is devoted to each phase, and within
each chapter there are three parts: Hanssen's career, Hanssen's espionage, and
the FBI's penetration efforts.
      Chapter One covers the time period between 1976, when Hanssen joined
the FBI, and 1985, when he completed his first tour in the Soviet Analytical
Unit at FBI Headquarters. This chapter also includes background information

                                       2
concerning Hanssen's childhood, education, and employment prior to
becoming an FBI agent. Hanssen's first espionage – conducted on behalf of the
GRU (Glavnoye Razvedyvatelnoye Upravleniye, the Soviet Union's military
intelligence arm) – took place between 1979 and 1981. The FBI's investigation
of Soviet-related penetration leads during this time period was minimal.
      Chapter Two covers the time period between 1985 – when Hanssen
became the supervisor of an FBI technical surveillance squad in New York and
volunteered to the KGB – and 1992. Hanssen's FBI career progressed
normally during these years, which also constituted his most active period of
espionage. With respect to the penetration issue, both the CIA and the FBI
suffered catastrophic and unprecedented losses of Soviet intelligence assets in
1985 and 1986, which suggested that a mole was at work in the Intelligence
Community. The FBI conducted several analytical efforts – including a major
joint project with the CIA – that were unsuccessful at determining the cause of
these compromises.
      Chapter Three begins in 1992 and ends with Hanssen's arrest in February
2001. In January 1992, Hanssen became the Chief of the National Security
Threat List Unit at FBI Headquarters, the highest ranking position he held at
the FBI. Hanssen's failings as a supervisor and his inability to properly handle
classified information led the FBI to remove Hanssen from his Unit Chief
position, and he was subsequently detailed to the State Department as the FBI
liaison to the Office of Foreign Missions (OFM). He served for six years in the
OFM, until shortly before his arrest. With respect to espionage, Hanssen made
a clumsy and aborted approach to the GRU in 1993 and then successfully re-
volunteered to the KGB in 1999. Hanssen's espionage – which during this
period relied heavily on his improper use of the FBI's Automated Case Support
(ACS) computer system − continued until his arrest in February 2001.
       The FBI's penetration-related investigations increased dramatically in the
1992 to 2001 period. The FBI substantially increased the resources it devoted
to the penetration issue and successfully identified and prosecuted several
individuals who spied for Russia, including CIA officer Aldrich Ames. The
most significant espionage investigation that the FBI pursued after the 1994
arrest of Ames, however, was the search for the penetration of the U.S.
Intelligence Community who was later determined to be Hanssen. The FBI
believed early on that the mole worked at the CIA and subsequently pursued a
lengthy investigation of a CIA employee. We now know that from the outset
the FBI was focused on the wrong suspect at the wrong agency.



                                        3
      Chapter Four of our report examines deficiencies in the FBI's internal
security that were apparent during our investigation of the Hanssen matter.
This chapter discusses how flaws and deficiencies in the FBI's programs and
policies concerning background reinvestigations, financial disclosures,
polygraph examinations, computer security, classified document handling, and
procedures for reporting and documenting security violations made it easier for
Hanssen to commit espionage and more difficult for the FBI to detect him. It
also describes the changes that have been made, or not made, to the FBI's
internal security program since Hanssen's arrest in 2001.
      Lastly, Chapter Five summarizes our principal factual findings and sets
forth our recommendations for changes in the FBI's counterintelligence and
security programs.

III. Principal Findings of the OIG Investigation
     In the following paragraphs, we summarize the report's principal findings
concerning Hanssen's career at the FBI, his espionage, and the FBI's
penetration-related efforts from 1978 to 2001.

    A. Hanssen's FBI Career
       During his 25 years with the FBI, Hanssen was a mediocre agent who
exhibited strong technical abilities but had weak managerial and interpersonal
skills. Despite his failings as a supervisor, Hanssen was on the FBI's
promotional track for much of his FBI career, and he generally received
average to favorable performance evaluations. While Hanssen's day-to-day
behavior did not suggest that he was engaged in espionage, he continually
demonstrated an unwillingness to properly handle classified information. His
indiscretions and security violations were largely ignored and wholly
undocumented, however, and he was allowed to remain in positions offering
him broad access to highly sensitive counterintelligence information.
Ultimately, Hanssen's inability to effectively interact with subordinates and
colleagues derailed his FBI career.
      Hanssen received minimal supervision in most of his positions, was not
required to produce significant work product, and had ample time to plan and
commit espionage while on duty. Hanssen also encountered few security
checks at the FBI. He was never asked to submit to a polygraph examination
or to complete a financial disclosure form, and he received only one
background reinvestigation during his 25-year FBI career.



                                       4
      To his FBI co-workers, Hanssen's personal life appeared completely
inconsistent with that of a spy. He was married with six children, and appeared
to be a devout Catholic who attended mass every day and who was actively
involved in Opus Dei, a conservative Catholic lay organization. He also
espoused politically conservative and anti-Communist views. Hanssen had no
alcohol, drug, or gambling problems, and did not engage in ostentatious
spending.
      Hanssen was an only child whose father, a lieutenant in the Chicago
Police Department, emotionally abused him throughout his life. Starting from
a young age, Hanssen enjoyed spy-related entertainment, especially James
Bond books and movies, collected items associated with espionage, such as a
Walther PPK pistol, a Leica camera, a shortwave radio, and opened a Swiss
bank account. Hanssen was an average student in college, majoring in
chemistry. He drifted through dental school and business school − and became
a certified public accountant − before joining the Chicago Police Department.
After four years, Hanssen left the police department to join the FBI in January
1976.
      Hanssen appeared to be an appropriate candidate for the FBI, in light of
his college education, master's degree in business administration, experience as
a certified public accountant, and service in the Chicago Police Department.
The FBI's initial background investigation and interviews did not indicate that
Hanssen was likely to commit espionage. While Hanssen came to the FBI with
serious personal insecurities, low self-esteem, and a fascination with espionage,
these characteristics did not emerge during the application process.
      Once in the FBI, Hanssen's personality traits set him apart from his FBI
colleagues. He had poor interpersonal skills and a dour demeanor, and was an
awkward and uncommunicative loner who conveyed a sense of intellectual
superiority that alienated many of his co-workers. Early in his career,
however, Hanssen demonstrated significant initiative and organizational skills,
developing, for example, a case prioritization system that remains in use today
at the FBI. He also had an interest in and aptitude for computer work that was
highly unusual at the time, and a number of his early supervisors regarded him
as smart, technically proficient, and analytical.
      After graduation from the FBI Academy at Quantico, Virginia, Hanssen
served an initial two-year tour as a Special Agent in Gary, Indiana. While
Hanssen sought out counterintelligence assignments in Gary, there was little
such work available. At the end of his tour, Hanssen requested a transfer to the
FBI's New York Office. Within six months of his arrival in New York,


                                       5
Hanssen arranged to be transferred from a Criminal Division squad to Soviet
counterintelligence work, which remained his assignment for most of his FBI
career. Hanssen quickly began exploiting weaknesses in the FBI's internal
information security. While still assigned to a Criminal Division squad in the
FBI's New York Office, Hanssen took advantage of the unrestricted and
unmonitored access to the closed file room and spent hours reading Soviet
espionage files – without any conceivable "need to know" – managing to
identify some of the FBI's most significant Soviet sources in the process.
Hanssen − who appeared to have little aptitude for operational work −
demonstrated a strong interest in computers and in administrative assignments,
and was given responsibility for managing the New York Office's
counterintelligence database, a position that put him at the center of the
information flow.
       In the early 1980s, Hanssen served in the Budget Unit and in the Soviet
Analytical Unit at FBI Headquarters − positions that provided him with broad
access to sensitive information and an opportunity to use his technical and
computer skills, but did not require operational work. Because the Budget Unit
was responsible for preparing materials justifying the FBI's budget requests to
Congress, Hanssen obtained access to sensitive information from all
components of the Intelligence Division, and worked closely with the NSA and
the CIA to secure joint funding for certain projects. In the Soviet Analytical
Unit, Hanssen gained access to the FBI's most sensitive human assets and
technical operations against the Soviet Union. He also began a noticeable
pattern of mishandling classified information, primarily by disclosing the
existence of Soviet sources and investigations to people with no "need to
know," such as FBI employees in other divisions and personnel from other
agencies. While Hanssen's tours in the Budget and Soviet Analytical Units
showed that he was an intelligent, analytical agent with significant computer
skills, his performance also revealed that he lacked the interpersonal skills to
communicate effectively and perform supervisory duties. Nonetheless,
Hanssen's career at the FBI continued to advance.
       In 1985, Hanssen returned to the New York Office as the supervisor of a
technical surveillance squad. Hanssen was a lackadaisical manager who did
not interact effectively with his subordinates. Because the squad largely "ran
itself," however, Hanssen's limited interpersonal skills did not become a
significant issue. Similarly, Hanssen's mishandling of classified information
was obvious to his subordinates but was not brought to the attention of his
superiors.



                                       6
      In 1987, Hanssen returned to the Soviet Analytical Unit in FBI
Headquarters as a supervisor, a position that he told the OIG he found
"overwhelmingly attractive" because of the extremely broad access to sensitive
information it offered. Although Hanssen received very favorable performance
evaluations during his second tour in the Unit, his supervisor regarded him as
the "strangest person" he had ever worked with in the FBI − a "kind of cipher
who was rigid, dour, and a religious zealot." As was the case during his first
tour in the Unit, Hanssen produced little work product, and his subordinates
regarded him as distant and arrogant. Shortly after his return to the Unit,
Hanssen committed a serious security breach by disclosing sensitive
information to a Soviet defector he was debriefing. Hanssen's colleagues
recognized that he could not be trusted with highly sensitive information and
informally attempted to restrict his access. Although this security breach was
reported to an FBI supervisor, it was not documented, and no formal action
was taken against Hanssen, whose access to sensitive information remained
largely unchecked.
      In 1990, Hanssen became an Inspector's Aide in the Inspection Division,
a position that was considered a prerequisite for advancement at the FBI. In
this position, Hanssen traveled to FBI field offices to help rate their overall
performance. In June 1991, Hanssen became a program manager in the Soviet
Section at FBI Headquarters, where he supervised operational programs
designed to counter Soviet efforts to acquire scientific and technical
information. This assignment was brief and uneventful.
       In January 1992, Hanssen became chief of the National Security Threat
List (NSTL) Unit, a new unit at FBI Headquarters that dealt with economic
espionage, theft of trade secrets and critical technologies, and nuclear
proliferation. This position required significant management skills and an
ability to work effectively with the FBI's field offices, and Hanssen's
deficiencies in these areas quickly became apparent. Hanssen's subordinates
found him disinterested in the Unit's work and were frustrated by his failure to
provide guidance and direction. Rather than engage in the daily work of the
Unit, Hanssen frequently sat in his office listening to foreign language tapes for
hours at a time. Hanssen also had poor relations with the FBI's field offices,
which complained that he rejected an inordinately high percentage of their
proposals for investigations.
      While in the NSTL Unit, Hanssen committed two serious and flagrant
security breaches. First, he hacked into the FBI's computer system and
accessed highly sensitive Soviet counterintelligence documents located on the


                                        7
hard drives of his colleagues and supervisors in the National Security Division.
Hanssen grew nervous about what he had done and decided to report it to FBI
management in the guise of revealing a flaw in the FBI's computer security.
Hanssen's ruse succeeded, and no one questioned his breach of computer
security. Hanssen's second significant breach occurred when, in direct
contravention of a decision made by FBI management, he disclosed to the
British intelligence service information about a highly sensitive FBI
investigation. At about this time, Hanssen also came under investigation by the
FBI's Office of Professional Responsibility because of a physical altercation
with a female FBI support employee. The investigation resulted in a letter of
censure and a five-day suspension. The physical altercation, the improper
disclosure to British intelligence, and Hanssen's poor performance in the NSTL
Unit doomed his chances for further advancement at the Bureau.
      As part of an FBI-wide program in which Headquarters personnel were
reassigned to FBI field offices, Hanssen was involuntarily removed from his
position as NSTL Unit Chief in April 1994 and transferred to the FBI's
Washington Field Office (WFO), where he was assigned to a computer squad
in a non-supervisory capacity. While not an official demotion, Hanssen was no
longer on the management track for higher supervisory positions at the Bureau.
Hanssen largely ignored his new assignment in the field office and soon began
seeking work at FBI Headquarters. For several months, Hanssen worked on
computer-related projects for senior NSD officials.
       In late 1994, FBI management began considering Hanssen as a candidate
to fill an FBI position in the Office of Foreign Missions (OFM) at the State
Department. OFM regulates selected activities of foreign missions in the
United States to protect U.S. foreign policy and national security interests, and
also helps foreign missions protect their diplomats and facilities. Hanssen's
FBI superiors saw the OFM liaison position as a good "out of the mainstream"
job for Hanssen, a supervisory agent who had proven incapable of supervising
others. Hanssen started at OFM in February 1995 and remained at the State
Department for the next six years.
      Hanssen's work responsibilities at OFM consumed no more than a few
hours a day, and he was wholly unsupervised by either State Department or
FBI personnel. The job carried no significant operational or managerial
responsibilities, and once Hanssen was at OFM, FBI management largely
forgot about him. No one checked on him or his work – or even ensured that
he was at work. No performance evaluations concerning Hanssen were
completed during the entire six years that he served at OFM. Hanssen took full


                                        8
advantage of the light workload and complete lack of supervision, spending
hours each day out of the office, surfing the Internet and watching movies on
his personal laptop computer, and visiting friends and acquaintances.
      During Hanssen's detail to the State Department, the FBI provided him
with a desktop computer that was connected to the FBI's ACS computer
system. The ACS system gave Hanssen access to thousands of internal FBI
classified documents for which he had no "need to know." To determine
whether he was under investigation by the FBI, Hanssen also frequently
searched the ACS system for references to his own name and address. In
addition, he successfully mined the system for information concerning the
FBI's most sensitive espionage investigations. While the ACS system had
audit capability, Hanssen's improper searches went undetected because the FBI
did not conduct audit trail reviews absent an allegation of wrongdoing.
       Hanssen continued to commit security violations while at the State
Department. He improperly disclosed classified information to others –
including NSA and State Department employees, close friends, and members
of the press. Hanssen's most egregious security breach at OFM – an attempt to
install password breaker software on his FBI computer – was discovered by the
FBI's computer specialists, who documented the incident and referred it to the
FBI's Security Programs Manager. Hanssen told the Security Programs
Manager that he had installed the hacking program in order to connect to a
color printer, however, and he suffered no negative consequences as a result of
this misconduct. As with Hanssen's other security violations, nothing about the
matter was recorded in either his personnel or security file.
     In late 2000, after the FBI received information identifying Hanssen as a
Russian mole, the FBI offered him a Senior Executive Service position at FBI
Headquarters, where he could be closely monitored. Hanssen was arrested on
February 18, 2001.

    B.   Hanssen's Espionage
      Hanssen was the most damaging spy in FBI history, and he betrayed
some of this nation's most important counterintelligence and military secrets,
including the identities of dozens of human assets, at least three of whom were
executed. Hanssen committed espionage intermittently, starting and stopping
several times during his 25-year FBI career. He engaged in three discrete
periods of espionage − 1979-81, 1985-91, and 1999-2001 − and unsuccessfully
attempted to renew his espionage on behalf of the GRU in 1993. The reasons
why Hanssen initially began committing espionage, and repeatedly returned to


                                       9
it, are complex and, as we explain below, changed over time. Many of the
factors that have motivated or influenced traitors in the past − such as greed,
ideology, career disappointments and resentment, and drug and alcohol abuse −
do not apply to Hanssen or do not fully explain his conduct.
      Our review of the Hanssen case revealed that there was essentially no
deterrence to espionage at the FBI during the 1979 to 2001 time period and that
the FBI's personnel and information security programs presented few obstacles
to Hanssen's espionage. His removal of hundreds of classified documents from
the FBI − including original and numbered Top Secret documents − and
improper searches of the Bureau's computer system for references to himself
and to the Bureau's most sensitive espionage investigations went unnoticed.
Because of lax supervision, Hanssen felt free to conduct many of his
espionage-related activities while on duty, including creating encryption
devices for communicating with the Russians, servicing dead drops, and
counting his cash payments from the Russians. These deficiencies in
deterrence, detection, and supervision played a major role in Hanssen's
willingness and ability to commit espionage over a more than 20-year period.

          1.   First Period of Espionage: 1979 – 1981
      Hanssen first began spying for the Soviets in November 1979, just eight
months after he transferred to a counterintelligence squad in the FBI's
New York Office. While on duty, Hanssen volunteered his services to the
GRU by delivering a package to a GRU officer at a Soviet trade organization.
In his correspondence with the GRU, Hanssen revealed that he was an FBI
agent, but offered no other identifying information. Over the next year and a
half, Hanssen conducted clandestine exchanges with the GRU, receiving cash
payments totaling at least $21,000.
       Hanssen's initial decision to commit espionage arose from a complex
blend of factors, including low self-esteem and a desire to demonstrate
intellectual superiority, a lack of conventional moral restraints, a feeling that he
was above the law, a lifelong fascination with espionage and its trappings and a
desire to become a "player" in that world, the financial rewards he would
receive, and the lack of deterrence – a conviction that he could "get away with
it." We believe that the personality flaws and background that Hanssen
brought with him into the FBI likely played a more significant role in his
decision to commit espionage than anything that happened to him after he
became an agent.



                                        10
      Hanssen's first period of espionage ended in the spring of 1981, when his
wife Bonnie inadvertently discovered him reviewing a GRU communication in
the basement of their home. Although Hanssen minimized his espionage in
discussions with his wife, he says that he confessed his espionage to an Opus
Dei priest within days of Bonnie's discovery. According to Hanssen, the priest
granted him absolution and told him that he did not have to turn himself in, but
suggested that he donate the money he had received from the GRU to charity.
Hanssen said that he broke off contact with the GRU and made multiple $1,000
donations to Mother Teresa's "Little Sisters of the Poor."
      The most significant information that Hanssen passed during this period
concerned the identity of a long-time FBI asset in the GRU. Hanssen's first
period of espionage was less damaging to the U.S. intelligence effort than his
next two periods of espionage.

         2.   Second Period of Espionage: 1985 – 1991
       Hanssen remained a dormant spy from 1981 until October 1985, when he
volunteered to the KGB, the Soviet Union's principal intelligence service. In
his letter to the KGB's Washington Residency, Hanssen was careful to
maintain his anonymity and did not disclose his prior espionage on behalf of
the GRU. Using the alias "Ramon" or "Ramon Garcia," Hanssen provided the
KGB with information concerning the Intelligence Community's most
important Soviet counterintelligence and military secrets, much of which he
had learned while assigned to the Soviet Analytical Unit. Although Hanssen
was working in New York from September 1985 to August 1987, all of his
operational espionage activity during this period took place in the Washington
area. According to Hanssen, he chose to volunteer to the KGB because he
believed it was more professional, had a longer-term outlook, and paid more
money than the GRU.
      We believe that Hanssen's decision to resume espionage was motivated
by many of the same factors at play in 1979. His obsession with espionage
(which he referred to as an "addiction"), his lack of self-esteem and desire for
recognition, his belief that he could commit espionage without being detected,
and the lack of effective deterrence all played a role. The fact that Hanssen had
done it before made it easier for him to do it again. Hanssen's return to
espionage also was likely fueled by his knowledge that he had successfully
evaded detection in the past and was in a position to demand a large payment
from the Russians for the highly sensitive information he had obtained in the
Soviet Analytical Unit.


                                       11
       During the next six years − the last stages of the Cold War − Hanssen
delivered thousands of pages of highly classified documents and dozens of
computer disks to the KGB detailing U.S. strategies in the event of nuclear
war, major developments in military weapons technologies, identities of active
and historical U.S. assets in the Soviet intelligence services, the locations of
KGB defectors in the United States, analytical products from across the
Intelligence Community, comprehensive budget and policy documents, and
many other aspects of the Soviet counterintelligence program. He passed some
of the most damaging information within his first two months of espionage,
including the true names of the FBI's most significant Soviet sources at the
time, KGB officers Sergey Motorin and Valeriy Martynov. Other significant
operations that Hanssen compromised during this period included the FBI's
espionage investigation of Felix Bloch, a senior State Department official
suspected of providing information to the KGB, and an FBI analytical report
regarding possible Soviet penetrations.
       Toward the end of Hanssen's second period of espionage, he became
increasingly careless, passing documents that clearly marked him as an FBI
employee. For example, when he was assigned to the Inspection Division, he
gave the KGB FBI inspection reports and documents that he took from field
offices while on inspection assignments. Hanssen also compromised Foreign
Intelligence Surveillance Act (FISA) wiretap applications prepared by the FBI.
In a particularly reckless move, Hanssen suggested to the KGB that it attempt
to recruit Jack Hoschouer, Hanssen's closest friend, who was then serving as a
military attaché at the U.S. Embassy in Bonn.
       Hanssen's second period of espionage contributed to the execution of at
least three human sources − including Motorin and Martynov – and caused
hundreds of millions of dollars worth of damage to U.S. intelligence programs.
In return, the KGB gave Hanssen cash payments of at least $500,000, as well
as three diamonds. He stored the cash, as much as $100,000 at a time, in a
gym bag in his bedroom closet. He also deposited large amounts of the KGB's
money into a passbook savings account in his own name at a bank located a
block from FBI Headquarters. While Hanssen has not accounted for much of
the money he received from the KGB, it is clear that he spent some of it on an
addition to his home, cars, tuition payments for his children's private schools,
gifts, a loan to his brother-in-law, and at strip clubs. In late 1989, Hanssen
began a year-long relationship with a stripper, Pricillia Sue Galey. Hanssen
paid for Galey to accompany him on an FBI Inspection Division trip to Hong
Kong, bought her a Mercedes Benz, provided her with an American Express
card, and gave her jewels, cash, and other gifts.

                                       12
       In August 1990, Hanssen's brother-in-law, FBI Special Agent Mark
Wauck, heard that Hanssen's wife Bonnie had found $5,000 in unexplained
cash in Hanssen's dresser drawer. Wauck reported this and other incidents he
found suspicious to a supervisor in the FBI's Chicago Field Office. Although
Wauck and the supervisor now have significantly different recollections of
their conversation, we believe that Wauck provided the supervisor with enough
information to warrant some follow up. Instead, the supervisor readily
dismissed Wauck's concerns, in part because there was no policy or procedure
mandating that he pass the information on for analysis and possible
investigation. This incident highlights deficiencies in the FBI's protocol for the
receipt and investigation of derogatory information about an agent. There was
no standard procedure for reporting and collecting such information, nor was
there a central repository at the FBI responsible for collecting this information.
      After picking up a $12,000 KGB payment in December 1991, Hanssen
again broke off contact with the Soviets. Hanssen told us that he took this
action because of his increasing guilt and after confessing his espionage to
Catholic priests. We are skeptical of this explanation, however, because
Hanssen's decision to halt his espionage coincided with the fall of the Soviet
Union, as well as with the initiation of a new FBI/CIA molehunt effort that
Hanssen knew about. Both events increased the risk that Hanssen's espionage
would be detected or disclosed.

          3.   Unsuccessful Approach to the GRU: 1993
      A year and a half after breaking off contact with the KGB in late 1991,
Hanssen made an awkward and unsuccessful attempt to reestablish contact
with the GRU. The risks Hanssen took in approaching the GRU in 1993 far
outweighed any he had taken during his first two periods of espionage. In
July 1993, Hanssen approached a GRU officer in the garage of the officer's
apartment building. Hanssen identified himself as an FBI agent, explained that
he had worked for the KGB under the name Ramon Garcia, and tried to give
the officer a package containing summaries of double agent cases that the FBI
was running against the GRU. The GRU officer refused to accept the package,
and then reported the approach to his superiors. The Russians filed a protest
with the U.S. government − apparently believing that the approach had been an
officially sanctioned provocation − and the FBI opened an investigation.
Although Hanssen's approach to the GRU officer was reckless in a variety of
ways, the FBI's investigation of this incident – which Hanssen monitored
through the FBI's computer system − was unsuccessful.



                                       13
       Hanssen claimed that two factors motivated this approach to the GRU.
First, he wanted an explanation as to why the GRU was still running double
agent cases that he had previously compromised to the KGB. Second, he "felt
pity" for the GRU and wanted to ensure that it knew which of its sources were
actually double agents. Although Hanssen denied that this approach was
motivated by a need for money, he sought funds from a wide variety of sources
at about this time. Indeed, the day of the failed approach, Hanssen asked his
mother for $10,000. In addition, even though Hanssen made this approach the
day after his father died, he claimed not to remember the proximity of these
two events during his debriefings and OIG interviews.
       Hanssen's 1993 approach to the GRU was remarkable for its recklessness
and self-destructive quality. Unlike his prior periods of espionage, Hanssen
had face-to-face contact with a Russian intelligence officer, asked other FBI
employees to conduct computer searches concerning this officer, and
demonstrated virtually no regard for his personal security. Hanssen told the
OIG that when the approach failed, it "shocked [him] back out of that mental
state."

         4.   Third Period of Espionage: 1999 – 2001
      In 1999, Hanssen revolunteered to the KGB. Over the next two years,
Hanssen provided the Russians with information concerning some of the FBI's
most significant KGB sources and most sensitive espionage investigations.
Hanssen had obtained most of this information from improper searches of the
FBI's ACS computer system. As with his second period of espionage, Hanssen
used the pseudonym "Ramon Garcia" and communicated through dead drop
exchanges, but passed many documents that were unmistakably FBI products.
Hanssen's decision to resume espionage in 1999 was driven by two factors:
(1) his discovery – through the ACS system – of the FBI's effort to identify a
significant KGB mole believed to be a CIA officer; and (2) his deteriorating
finances.
      While searching the ACS system in the spring of 1999, Hanssen
stumbled upon the FBI's most significant ongoing Russian espionage
investigation. This case was a search for the KGB mole who turned out to be
Hanssen. At the time, however, the FBI's investigation was focused on a CIA
officer. Although the FBI did not intend for documents related to this highly
sensitive investigation to be uploaded into the ACS system − because of
widespread concerns about the system's security − many such documents were
uploaded due to failures in training, simple human error, and insufficient


                                     14
concern about maintaining operational security. Within a day of discovering
the existence of the investigation, Hanssen obtained the CIA suspect's true
name. Hanssen decided to warn the KGB about the investigation and thereby
"save" the CIA suspect. Hanssen also stated that the case offered him all of the
"excitement" and "stimulation" from espionage that he craved.
      At the same time, Hanssen's financial situation was the worst it had ever
been. Although Hanssen was close to the top of the FBI pay scale, his
spending continually outstripped his income. He had significant credit card
debts, car loans, bank loans, and tuition payments for his children. While
Hanssen's mother had previously supplemented his income, giving him more
than $94,000 in the mid-1990s, she told Hanssen in 1997 that she was running
out of money. Hanssen claimed that he set a goal of obtaining approximately
$100,000 from the KGB, believing that this amount would stabilize his
finances, at least until he retired from the FBI and entered the private sector.
      When Hanssen reestablished contact with the KGB in July 1999, he did
so as "Ramon Garcia." Hanssen indicated that he needed money and provided
a communications plan using a drop site from his second period of espionage.
In August 1999, the KGB paid Hanssen $50,000. Over the next year, Hanssen
made several attempts to pass information through dead drop exchanges, but
the KGB failed to retrieve his packages. Accordingly, Hanssen resorted to
mailing the KGB a disk and a letter which provided the true names of several
individuals under investigation for espionage, as well as information
concerning two FBI assets in the Russian intelligence services and two
significant FBI technical operations. Hanssen's last successful dead drop
exchange occurred in November 2000, when he gave the KGB a large stack of
classified documents from the ACS system that he had been collecting for over
a year.
       In late 2000, the FBI identified Hanssen as a spy and lured him back to
FBI Headquarters – where he could be more easily monitored − with the offer
of a temporary Senior Executive Service position involving computer security.
Hanssen began his new position on January 13, 2001. On February 12, 2001,
the FBI discovered a package containing $50,000 that the KGB had left for
Hanssen in a dead drop site. Six days later, on February 18, 2001, after
Hanssen had left a package for the KGB in a different dead drop site, he was
arrested and charged with espionage offenses.
     Although Hanssen escaped detection for more than 20 years, this was not
because he was a "master spy." While Hanssen took some important steps to
maintain his security − such as refusing to reveal his identity to his Russian


                                       15
handlers − and used his knowledge of the FBI's counterintelligence practices
and poor internal security to his advantage, much of Hanssen's conduct when
committing espionage was reckless. For example, Hanssen (1) set up an FBI
camera on a drop site he used for exchanges with the GRU during his first
period of espionage; (2) used an FBI telephone line and answering machine for
communications with the KGB in 1986; (3) deposited much of the KGB's cash
directly into a passbook savings account in his name in the late 1980s;
(4) suggested to his Russian handlers in 1991 that they attempt to recruit Jack
Hoschouer, his best friend; (5) directly approached a GRU officer in 1993 and
revealed that he was an FBI agent who had previously committed espionage for
the KGB – an approach that led to a diplomatic protest from the Russians and
an FBI investigation that could have identified Hanssen as a mole; and
(6) searched the FBI's computer system, during his last period of espionage, for
references to his own name, address, and drop and signal sites – conduct that
would have been difficult to explain if the FBI had utilized the computer
system's audit feature. In sum, Hanssen escaped detection not because he was
extraordinarily clever and crafty, but because of longstanding systemic
problems in the FBI's counterintelligence program and a deeply flawed FBI
internal security program.

    C. FBI Analytical and Investigative Penetration Efforts: 1978 −
       2001
      The FBI's penetration efforts in the late 1970s and 1980s suffered from a
lack of cooperation with the CIA and from inattention on the part of senior
management. In 1985 and 1986, the CIA and FBI lost nearly every significant
human asset then operating against the Soviet Union. These losses were
unprecedented in scope, quantity, significance, and timing, yet the FBI
undertook no sustained effort to determine their cause. Senior management
was almost entirely unaware of the scope and significance of these losses, and
throughout the 1980s the FBI failed to work cooperatively with the CIA to
resolve the cause of these losses or to thoroughly investigate whether an FBI
mole could be responsible for these setbacks. We now know that Hanssen
compromised many of the assets and operations lost during the mid-1980s.
      The early 1990s saw significant improvement in FBI/CIA cooperation,
with the two agencies undertaking a joint investigation concerning the cause of
the 1985-86 asset losses. The FBI drastically increased the number of squads
and personnel devoted to espionage investigations, and the FBI's senior
management took a much more active role in supervising penetration
investigations. The energized penetration efforts led to successful espionage


                                      16
prosecutions of CIA officers Aldrich Ames and Harold Nicholson, FBI Special
Agent Earl Pitts, and NSA detailee David Boone. While the FBI worked
closely with the CIA's Special Investigations Unit (SIU) on most of these
cases, the SIU was not an equal partner. The FBI's failure to keep the CIA
apprised of information concerning non-CIA espionage investigations – such
as the case involving FBI agent Earl Pitts – undermined the effort to identify
Hanssen.
      In attempting to identify the mole who turned out to be Hanssen, the FBI
intensively pursued a CIA suspect. This investigation culminated in the
submission of a report to the Justice Department that appeared to seek the
prosecution of that CIA suspect, despite the fact that some senior FBI
managers had serious reservations about the conclusions of the report and
doubted whether the officer – who has since been exonerated by the FBI − was
the correct target.
      Although the FBI pursued penetration leads in the 1990s that we now
know related to Hanssen, he received no investigative scrutiny until late 2000.
Indeed, the FBI never opened even a preliminary inquiry on any FBI employee
in connection with the search for the mole ultimately identified as Hanssen.
This was true even though the FBI had access to information suggesting that
the mole might be an FBI employee, and believed that the mole had
compromised certain FBI assets and operations.
      Longstanding systemic problems in the FBI's counterintelligence
program played an important role in the FBI's failure to uncover Hanssen.
Most importantly, the FBI demonstrated a reluctance to consider itself as a
possible source for a penetration in the absence of leads identifying a specific
FBI target. Thus, the FBI maintained a focus on the CIA as the mole's
employer despite information indicating that the mole might be an FBI
employee.
      Ineffective oversight by FBI management and poor coordination with the
Justice Department also contributed to the length of the FBI's investigation of
the wrong suspect and the failure to pursue alternative avenues. The FBI
managers with supervisory authority over the investigation often deferred to
line personnel – even when the managers harbored serious doubts about the
progress of the investigation – resulting in a tacit endorsement of erroneous
analysis and conclusions. This problem was compounded by the FBI's poor
coordination with the Justice Department components responsible for
overseeing intelligence investigations − the Office of Intelligence Policy and
Review (OIPR) and the Criminal Division's Internal Security Section (ISS).


                                       17
Because the FBI did not provide the Justice Department with complete
information about its investigation – omitting crucial information about
weaknesses in proof and investigative setbacks – the Justice Department could
not properly evaluate the strength of the FBI's case against the CIA suspect.

          1.   Ad Hoc Analytical and Investigative Efforts from the 1970s
               to 1993
      In the 1970s and early 1980s, the FBI investigated several source reports
of Soviet penetrations of the FBI and CIA. None of the leads from this time
period appears to have any connection to Hanssen's espionage.
      In the 1980s and early 1990s, the FBI's response to learning that an
important FBI Soviet asset was compromised or to receiving information
indicating that a human penetration was at work was often to create an ad hoc
team to examine the issue. These efforts were typically analytical rather than
investigative. While each study considered the possibility of an FBI mole,
none involved an actual investigation of this issue, and none resulted in an
investigation being opened on a specific FBI employee. Likewise, none of
these efforts concluded that a penetration of the FBI was responsible for the
ongoing compromises that the FBI's Soviet program experienced from the mid-
1980s to early 1990s.
      In late 1986, the FBI learned that its two most significant Soviet assets –
KGB officers Motorin and Martynov – had been arrested for espionage within
the previous year. This appears to be the first notice the FBI received
concerning compromises attributable to Hanssen, who we now know
compromised both assets in October 1985, confirming information that CIA
officer Aldrich Ames had provided to the KGB in June 1985.
      After learning that its two most important KGB assets had been arrested,
the FBI formed a six-person task force to determine how they had been
compromised and whether an FBI mole was responsible. In the course of its
review, the Task Force discovered that because of poor document controls and
violations of the "need to know" principle it was impossible to determine who
within the FBI had had access to the Motorin and Martynov cases.
Accordingly, no FBI employee with knowledge of these assets was
investigated. Nonetheless, in September 1987 the Task Force issued a final
report stating that there was no evidence of a Soviet spy in the FBI. The Task
Force, however, did not resolve how the assets had been compromised.
      During the Task Force effort, the FBI learned that the CIA had likewise
suffered catastrophic and unprecedented losses in its Soviet program. Yet, the

                                       18
FBI failed to work cooperatively with the CIA to resolve the cause of these
losses.
      Between 1987 and 1991, the FBI suffered continuing losses of Soviet
human assets and technical operations that it could not explain. During this
period, the FBI conducted two analytical studies that considered the
penetration issue, but neither study led the FBI to investigate the possibility of
an FBI mole. The first study was a two-year effort aimed at resolving
historical allegations of an FBI penetration. The project proceeded
chronologically, and by late 1988 the team had analyzed leads only from the
1950s and 1960s. In an interim report, the team concluded that two
penetrations of the FBI existed before 1964, but the team never reached the
time period relevant to the FBI's more recent and unprecedented losses. The
project was abandoned in the summer of 1989.
      The second study systematically examined more than 50 FBI operations
that had been compromised since 1986, including human assets, technical
operations, double agent programs, and recruitment operations. The final
report, issued in November 1988, described the continuing, across-the-board
problems within the FBI's Soviet operations, but was equivocal with respect to
the possibility of an FBI mole. The report suggested that a CIA penetration
was a more likely explanation for the FBI's losses. We now know that Hanssen
compromised most of the significant operations discussed in the report.
      In 1991, the FBI and the CIA formed the SIU, which was directed to
analyze the numerous FBI and CIA cases lost after 1985 and to prepare a list of
suspects who could account for the losses. Simultaneously, the FBI created a
new investigative squad at WFO to pursue investigative leads generated by the
SIU and, in the meantime, to reanalyze many of the same FBI compromises
and penetration leads considered during the FBI's earlier analytical efforts. By
the end of 1992, after reviewing numerous FBI and CIA historical
compromises without any investigative progress, the squad began to disband
while awaiting new leads from the SIU.
      While the SIU obtained compelling evidence that CIA officer Aldrich
Ames was a Russian mole and was likely responsible for many of the
compromises at issue, the team's March 1993 final report merely stated that
there was a KGB penetration in the CIA who began his espionage in 1985.
The report failed to highlight Ames as a suspect worthy of special investigative
attention. Instead, Ames was presented simply as one of 40 CIA employees
who had access to the Soviet operations compromised in the 1985-86 period.
The report did not include a comparable list of FBI employees. Although the


                                        19
SIU's final report raised the possibility of a KGB penetration of the FBI, the
team did not undertake or recommend any meaningful action concerning this
possibility.

          2.   Penetration Investigations and the Search for Hanssen:
               1993 − 2001
      The years between 1993 and 2001 marked one of the most active and
productive periods for espionage investigations in the FBI's history. The FBI
greatly expanded its counterespionage effort and successfully apprehended a
number of significant Russian spies. This period was dominated, however, by
the search for a KGB mole who was reportedly more damaging than Ames.
The FBI poured enormous resources into this search. The FBI believed early
on, however, that the mole was a CIA employee and did not change that view.
We now know that the FBI was on the wrong track from the beginning,
because the mole the FBI was looking for was Hanssen, an FBI employee.
      As the investigation unfolded, the FBI focused on a specific CIA
employee. Given the information it had at the time, the FBI's initial selection
of this CIA employee as the lead suspect was understandable. Although an
extensive investigation of this CIA suspect failed to yield any conclusive
evidence of espionage, the FBI became convinced that he was a KGB mole.
This was due in part to the suspect's ambiguous and sometimes suspicious
behavior and in part to a belief that this individual had emerged as the lead
suspect as the result of an objective and scientific process. Despite its lack of
success in the investigation, the FBI, in a 70-page Investigative Report,
informed the Justice Department that the CIA suspect was a significant KGB
mole, and sought an opinion as to whether he could be prosecuted for
espionage.
       The FBI should have seriously questioned its conclusion that the CIA
suspect was a KGB spy and considered opening different lines of investigation.
The squad responsible for the case, however, was so committed to the belief
that the CIA suspect was a mole that it lost a measure of objectivity and failed
to give adequate consideration to other possibilities. In addition, while FBI
management pressed for the investigation to be completed, it did not question
the factual premises underlying it. Similarly, the CIA's SIU did not serve as an
effective counterbalance to the FBI, because it was not an equal partner in the
molehunt.
      The supervisory failures in connection with the espionage investigation
of the CIA suspect are most apparent in the context of the Investigative Report


                                        20
that the FBI presented to the Justice Department. Although several senior FBI
managers had serious doubts that the CIA suspect was the correct target, and
expected the Justice Department to decline prosecution for a lack of evidence,
the Investigative Report was written as if the FBI had no doubt that the CIA
suspect was a KGB mole who was the most damaging spy since Ames.
      Fortunately, the Justice Department never brought charges against the
CIA suspect, because while prosecutors were reviewing the case the FBI
determined that Hanssen was in fact the KGB mole. In late 2000, the FBI
opened an investigation of Hanssen, and on February 18, 2001, he was arrested
for espionage. The FBI later exonerated the CIA suspect.

IV. Summary of the FBI's Security Programs During Hanssen's Career
      The Hanssen case highlighted significant, longstanding deficiencies in
the FBI's internal security program, many of which were brought to the
attention of FBI management over the years but were not corrected.
Historically, the FBI has not been in compliance with Executive Orders, Justice
Department regulations, and Intelligence Community standards regarding
internal security. Although we found that the FBI has taken many important
steps to improve its internal security program since Hanssen's arrest −
including the implementation of a counterintelligence-focused polygraph
examination program, the development of a financial disclosure program, and
the creation of a Security Division − some of the most serious weaknesses still
have not been fully remedied. These weaknesses expose the FBI to the risk of
future serious compromises by another mole.
      Before Hanssen's arrest, the FBI's security program was based on trust.
Rather than taking the sort of proactive steps adopted by other Intelligence
Community components – such as requiring regular counterintelligence
polygraph examinations, financial disclosures, and meaningful background
reinvestigations, and utilizing audit functions regarding computer usage – the
FBI trusted that its employees would remain loyal throughout their careers.
The Hanssen case shows the danger of that approach.
      In our review, we observed serious deficiencies in nearly every aspect of
the FBI's internal security program, from personnel security, to computer
security, document security, and security training and compliance. These
deficiencies led to the absence of effective deterrence to espionage at the FBI
and undermined the FBI's ability to detect an FBI mole. Moreover, the absence
of deterrence played a significant role in Hanssen's decision to commit
espionage. As he explained during debriefings: "[I]f I had thought that the risk


                                      21
of detection was very great, I would never have done it." Hanssen also
exploited many of these weaknesses – particularly in document and computer
security – to pass sensitive information to the KGB.
       With respect to personnel security, Hanssen was never subject to a wide
variety of basic security techniques and procedures that could have deterred or
perhaps uncovered his espionage. For example, Hanssen was never asked to
submit to a polygraph examination during his 25-year FBI career, despite his
extraordinarily broad access to extremely sensitive human and technical
intelligence information from across the Intelligence Community. After
Ames's 1994 arrest, FBI National Security Division managers argued for an
aperiodic, random polygraph program, but the FBI's most senior management
rejected that request, largely because of concerns regarding false positives.
Hanssen's arrest in 2001 finally prodded the FBI to make a polygraph
examination part of the standard five-year background reinvestigation.
According to the FBI, by June 2003 it had also expanded its polygraph
program by implementing aperiodic, random polygraph examinations.
      Hanssen likewise was never asked to complete a detailed financial
disclosure form during his FBI career. During our interviews, Hanssen
identified meaningful financial disclosure as the security technique that would
have provided the greatest deterrence to his espionage. As it was, Hanssen felt
comfortable depositing thousands of dollars of the KGB's cash in a passbook
savings account – listed in his own name – at a bank located a block away from
FBI Headquarters. He also safely invented stories about family wealth and
successful investments to explain his spending. The FBI reported in July 2003
that a financial disclosure program "will be implemented within the next
month." Given that financial gain is often an important motive for committing
espionage, developing a credible financial disclosure program is a critical
element in improving the FBI's personnel security with respect to both
deterrence and detection.
      Hanssen received his first – and only – background reinvestigation in
1996, 20 years after he had joined the FBI. The FBI has conceded that a
number of "red flags" emerged during Hanssen's reinvestigation that were not
resolved. The FBI's perfunctory background reinvestigation of Hanssen was
not atypical, however. The system in place for background reinvestigations
discouraged thoroughness. The principal investigators were not given access
to the necessary source materials, such as the employee's personnel file,
security file, and credit reports, and they primarily interviewed references
supplied by the employee. They did not interview the employee. Moreover,


                                      22
the principal investigators merely collected information; they were not required
to provide analysis or to make investigative recommendations. As a result,
information developed through background reinvestigations received little
analysis.
        In committing espionage, Hanssen exploited serious weaknesses in the
FBI's document and information security. His access to classified national
security information – for both hard copies and computer files – was subject to
little control or monitoring throughout his FBI career. As a result, he walked
out of the FBI with copies and originals of some of the U.S. government's most
sensitive classified material – including numbered Top Secret documents –
with little fear of being stopped or detected. The FBI's inability to account for
its most sensitive documents and failure to limit this information to those with
a "need to know" has been noted both by the OIG and by the FBI's internal
reviews in the past, but remains uncorrected. This deficiency is significant
with respect to both deterrence and detection, because the FBI's inability to
account for its most sensitive documents makes an access-based investigation
for an FBI mole extremely difficult to pursue. The starting point for any such
investigation is a list of those employees who had access to a compromised
operation; at the FBI, that determination is often impossible to make.
      During his last period of espionage, Hanssen used the FBI's ACS
computer system to track the FBI's most sensitive espionage investigations –
including the investigation that was looking for him. Hanssen also routinely
searched the system for references to his own name and home address, and to
the signal and drop sites that he used, to assure himself that he was not under
investigation. Hanssen conducted thousands of searches for highly sensitive
information that he had no conceivable "need to know," without fear that a
computer audit would reveal his misconduct. As with his record of cash
deposits, it would have been difficult for Hanssen to invent an innocent
explanation for his repeated searches regarding his name, address, and signal
and drop sites. Even more significantly, an audit of Hanssen's ACS activity
would have identified him as someone worthy of investigation.
      The serious security flaws in the FBI's ACS system – which have been
discussed in prior OIG reviews and internal FBI inspection reports – have been
apparent since the system's inception in 1995, but have not been remedied.
Access restrictions are subject to ready override by Headquarters personnel
who, like Hanssen, have no "need to know" about the sensitive operations the
access restrictions are designed to protect. The system is likewise prone to
human error, with documents concerning highly sensitive operations – such as


                                       23
the Hanssen investigation – being made available to any curious user because
of improper uploading or inadequate restriction codes. The ACS system's audit
function, mandated by Justice Department regulations and a principal tool
against unauthorized usage as well as espionage, was rarely utilized before
Hanssen's arrest.
       Today, more than two years after Hanssen's arrest, the ACS system
remains insecure and vulnerable to misuse. The current audit program relies
on case agent review rather than third-party auditing. Moreover, the program
has only retroactive effect; case agents do not receive real-time notice when
someone seeks unauthorized access to their cases. The "need to know"
principle is not adequately applied in the computer context within the
Counterintelligence Division; all Headquarters Counterintelligence Division
agents have access to all cases in the Division whether or not their section or
unit is connected to the case. Finally, the system's susceptibility to human
error has not been remedied. In response to the OIG's findings regarding the
ACS system, the FBI reported in July 2003 that "attempting technical changes
to improve ACS security would not be a smart business decision" in light of
plans to implement a new automated case system known as the Virtual Case
File (VCF). The FBI stated that the first delivery of VCF is scheduled for
December 2003. In developing and implementing VCF, it is vital for the FBI
to rectify the types of security flaws that have been evident in the ACS system
for many years.
      The FBI's lax approach to personnel and information security also was
apparent in its handling of security violations. Hanssen's career was replete
with security breaches, none of which were documented in his personnel or
security file or (with one exception) reported to the FBI's Office of
Professional Responsibility, the Security Programs Manager, the NSD's
Security Countermeasures Section, the Justice Department Security Officer, or
any other central location for review and consideration of appropriate
disciplinary action. While these security breaches did not necessarily show
that Hanssen was engaged in, or was predisposed to engage in, espionage, they
demonstrated that he was unfit to have access to sensitive information. Our
review revealed unwillingness within the FBI to report security violations and
take them seriously, even when highly sensitive information was involved.
The Hanssen case also highlighted the absence of a centralized reporting
program for security violations at the FBI, as well as the absence of a unit at
FBI Headquarters responsible for collecting derogatory information concerning
FBI employees, particularly in the counterintelligence context. In July 2003,
the FBI reported that a security incident program had been instituted that will


                                      24
be managed by a new Security Compliance Unit. According to the FBI, the
Security Division and the Counterintelligence Division will meet on a monthly
basis to discuss counterintelligence-related issues.
      Many of the security issues that emerged from our review of the Hanssen
case stem from deficiencies in training. For example, FBI personnel specialists
responsible for employee background reinvestigations did not have the
necessary analytical training to assess issues that commonly arise during
background investigations. FBI employees using the ACS system did not have
sufficient knowledge and training to use the security controls that were built
into the system to regulate access to sensitive cases. FBI employees were not
knowledgeable regarding the requirements for handling classified materials,
particularly at the Sensitive Compartmented Information (SCI) level. And
employees and supervisors were not properly trained in how to report and
document security violations. We believe that the FBI will not see significant
improvement in its internal security until its employees are better trained on
security issues.
      In sum, the absence of adequate security controls at the FBI made
espionage too easy for Hanssen to commit. Because of inadequate document
security, he felt comfortable removing thousands of pages of classified
documents from FBI offices. Because of lax controls over even the most
sensitive information and violations of the "need to know" principle, he knew
that he could compromise the FBI's most important Soviet/Russian assets and
operations with little risk that the loss of these cases would be traced to him.
Because of inadequate computer security, he felt free to conduct thousands of
searches on the ACS system for references to himself and for information
concerning the FBI's most sensitive counterintelligence cases. Because of the
absence of financial disclosure, he felt comfortable depositing thousands of
dollars in espionage proceeds into his bank accounts. Because of the absence
of polygraph examinations for onboard employees, he never had to confront
the issue of what would happen when he failed polygraph questions aimed at
determining whether he was or had ever been an agent of a foreign power.
And because of a flawed and inadequate background reinvestigation program,
he never had to fear that the FBI would uncover spending and other behavior
inconsistent with his position at the FBI.
      The defects in the FBI's security program were the product of decades of
neglect. Historically, FBI management did not allot sufficient resources to
security and rejected internal recommendations – for example, in the polygraph
area – to make necessary improvements to the program. As a consequence,


                                       25
following Hanssen's arrest, the FBI faced enormous challenges in the areas of
personnel, computer, and document security. While the FBI has made progress
in many of these areas, in others – particularly computer security – problems
have not been fully remedied and significant work still needs to be done. The
FBI's Security Division must receive appropriate resources and support to
ensure that the security program is significantly improved.

V. The Failure to Deter and Detect Hanssen's Espionage
      The FBI's failure to deter and detect Hanssen's espionage over a more
than 20-year period cannot be attributed to any individual FBI employee or
small group of FBI supervisors. In addition, it is important to note that the
agents and analysts who conducted the FBI's penetration investigations were
extremely dedicated and hard-working, and demonstrated an impressive
commitment to the counterintelligence mission. Their work produced many
successes.
       At the same time, we found overarching problems in the FBI's internal
security efforts. Most of the deficiencies discussed in our report are of
longstanding vintage and reflect the cumulative decisions of many FBI
employees, including the Directors and senior managers who failed to remedy
serious flaws in the FBI's personnel, document, and information security
programs; the Directors and senior managers who failed to devote sufficient
resources and attention to the penetration issue in the 1980s and early 1990s,
and failed to resolve how important FBI human sources and operations had
been compromised; the unwillingness of line personnel working on the
espionage investigation of the CIA suspect to reconsider initial conclusions and
judgments in the face of investigative failures, and senior managers' failure to
insist that they be revisited; the failure of senior managers to ensure that
accurate information was supplied to the Justice Department concerning the
investigation of the CIA suspect; the supervisors and colleagues who ignored
Hanssen's pattern of security violations and his obvious lack of suitability for
handling sensitive information; and the managers who provided such lax
supervision of Hanssen that he was able to spend much of his time on non-
work related matters, or worse, committing espionage. These were widespread
failings.
      We believe that what is needed at the FBI is a wholesale change in
mindset and approach to internal security. The FBI must recognize and take
steps to account for the fact that FBI employees have committed espionage in
the past and will likely do so in the future. A unit at the FBI must be
responsible for asking every day whether there is evidence that the FBI has

                                      26
been penetrated, and the FBI's internal security program must shift from a
program relying on trust to a program based on deterrence and detection. The
following 21 recommendations are concrete steps the FBI should take to
improve its internal security and ability to deter and detect espionage in its
midst.

VI. Recommendations

    A. Improving the FBI's Performance in Detecting an FBI
       Penetration

Recommendation No. 1: New Penetration Unit at FBI Headquarters
A specialized permanent unit should be created within the Counterespionage
Section at FBI Headquarters dedicated to determining whether the FBI has
been penetrated. This Unit would be responsible for, among other things,
analyzing relevant source information, resolving how compromised assets and
operations were lost, and reviewing operations that lost their productivity or
effectiveness for no apparent reason, all with a view towards determining
whether the Bureau has been penetrated.

Recommendation No. 2: Senior Operational Post for Intelligence
Community Representative in FBI Counterespionage Section
The FBI should create a senior operational position in the Counterespionage
Section at FBI Headquarters that will be filled – on a rotating basis − by senior
executives from the CIA and other components of the Intelligence Community.

    B.   Improving Coordination with the Justice Department

Recommendation No. 3: Criminal Division Involvement in
Counterintelligence Investigations
Department of Justice Criminal Division personnel should be full participants
in counterintelligence investigations once suspicion has focused on a specific
individual.

Recommendation No. 4: More Substantive Role for OIPR Attorneys
OIPR attorneys should have a larger oversight role in ensuring the accuracy
and fairness of factual assertions in FISA applications and have direct access to
the case agent and the source information relied on in the application.



                                       27
     C. Improving Source Recruitment, Security, and Handling

Recommendation No. 5: Greater Emphasis on and Resources for New
Source Recruitment
The FBI should place greater emphasis on and provide more resources for
targeting and recruiting intelligence officers in hostile intelligence services
who are likely to have knowledge of penetrations of the Intelligence
Community.

Recommendation No. 6: Stricter Standards for Handling and Tracking
Sensitive Information from Significant Human Sources
The FBI should adopt stricter standards for handling and tracking sensitive
information from significant human sources and should enforce the "need to
know" policy in disseminating information from such sources. The FBI should
also adopt special handling techniques to better account for dissemination of
such information.

Recommendation No. 7: Guidelines for Handling Recruitments-in-
Place/Defectors
The FBI should adopt guidelines for handling active recruitments-in-place and
recent defectors that, among other things, limit the disclosure of sensitive
information, such as details of ongoing espionage investigations, to such
individuals.

     D. Security Improvements

Recommendation No. 8: Central Repository for Derogatory Information
The FBI should create a central repository for the receipt, collection, storage,
and analysis of derogatory information concerning FBI employees with access
to sensitive information. This repository should be directly accessible to
Counterespionage Section personnel responsible for determining whether the
FBI has been penetrated. The FBI should mandate that information or
allegations that reflect on the integrity, suitability, or trustworthiness of an
employee be documented and transmitted to this central repository for analysis.
The FBI should also train employees in recognizing the types of behavior that
should be reported.




                                        28
Recommendation No. 9: Documentation of Security Violations
The FBI should create policies and procedures designed to ensure that security
violations are reported, documented in an employee's security file, and
properly investigated and resolved. A database should be created to track
security violations by employees and identify patterns and trends. The FBI
should conduct regular security awareness training of its personnel, and this
training should include clear instructions regarding the reporting of security
violations.

Recommendation No. 10: Meaningful Background Reinvestigations
The FBI should adopt new procedures to ensure that background
reinvestigations are thorough, meaningful, and timely. Responsibility for this
program should be consolidated within the Security Division, and an
automated case management system should be installed that captures, stores,
and facilitates the analysis of personnel security information.

Recommendation No. 11: Financial Disclosure
The FBI should implement an annual, computer-based financial disclosure
program for employees with access to sensitive information. The program –
which should include disclosure of all accounts held by the employee and
immediate family members in financial institutions − should be designed to
detect unusual fluctuations in assets and cash flow as well as extraordinary
levels of debt, and should involve both collection of information and analysis.

Recommendation No. 12: Random Counterintelligence Polygraph
Program
The FBI should fully implement a counterintelligence polygraph program for
employees with access to sensitive information and develop a
counterintelligence polygraph program for non-FBI personnel who are given
access to sensitive information.

Recommendation No. 13: Enhanced Security Measures for FBI
Employees with Unusually Broad Access to Sensitive Information
The FBI should consider enhanced security measures – for example, more
frequent polygraph examinations, more frequent and thorough background
reinvestigations, and more detailed financial disclosures – for employees who
enjoy unusually broad access to sensitive information.



                                       29
Recommendation No. 14: Detecting Improper Computer Usage and
Enforcing "Need to Know"
The FBI should implement measures to improve computer security, including
(a) an audit program to detect and give notice of unauthorized access to
sensitive cases on a real-time basis; (b) an audit program designed to detect
whether employees or contractors are using the FBI's computer systems to
determine whether they are under investigation; (c) procedures designed to
enforce the "need to know" principle in the context of computer usage; and
(d) a program designed to ensure that restricted information cannot be
improperly accessed through the use of security overrides or other means.

Recommendation No. 15: Tracking Classified Information
The FBI should create and implement a program enabling it to account for and
track hard copy documents and electronic media containing sensitive
information. This program should also be designed to prevent the unauthorized
removal of sensitive information from FBI facilities, either through the use of
technology that "tags" classified documents and computer media or through
other means. The FBI should likewise develop a program to prevent the
improper copying of classified information.

Recommendation No. 16: Security Compliance Program
The FBI should implement a security inspection program that ensures that
deficiencies in security are detected and remedied within a reasonable time.
Compliance with recommendations from internal audits and inspection
reviews, as well as from external oversight reviews, should be tracked and
monitored until resolution.

Recommendation No. 17: Improving Security Education and Awareness
The FBI should make implementation of an FBI-wide security education and
awareness program a top management priority. In addition, the FBI should
track and regularly monitor the status of employee security training.

    E.   Management and Administrative Improvements

Recommendation No. 18: Exercise of Managerial Authority over
Espionage Investigations
FBI supervisors must guard against excessively deferring to line personnel
when supervising significant espionage investigations and must ensure that the


                                      30
Department of Justice is properly briefed on the strengths and weaknesses of
potential espionage prosecutions.

Recommendation No. 19: Damage Assessments for FBI Spies
Damage assessments concerning FBI employees who have committed
significant acts of espionage should be led by experienced counterintelligence
personnel and be conducted by an Intelligence Community entity, such as the
National Counterintelligence Executive (NCIX).
Recommendation No. 20: Recusal Procedures for FBI Employees
The FBI should adopt written policies and procedures for recusal of FBI
employees and supervisors who may be suspects in an espionage investigation.
Recommendation No. 21: Supervision of FBI Detailees
The FBI should ensure that FBI detailees serving in other Intelligence
Community components and elsewhere are properly supervised and receive
regular performance evaluations.




                                             ___________________________
                                              Glenn A. Fine
August 2003                                   Inspector General

OlG Investigative Team
Scott M. Barden
Kevin F. Becks
Paul G. Gardephe
Stephen D. Kelly
Mei Lin Kwan-Gett
Jeffrey D. Long
Jeffrey K. Vasey
Dominic N. Russoli
L. Susan Woodside




                                      31
